                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: I-05-1 1-0068                                                   11 p
                                                                                          Page 1 of 1



     During a previous investigation1a ~niversitf ultimately returned funds3to NSF for
     undocumented participant support. This investigation was opened to determine whether other
     participant support funds were at risk.

     Investigation, which included a review of financial records of four additional awards4,and a site
     visit to the awardee, revealed that in two of the awards5 the University had improperly
     reallocated participant support funds. Participant support funds are restricted to specific uses and
     cannot be reallocated without prior written approval from NSF, which the University did not
     have.

     As a direct result of this investigation, the University sent a check to NSF for all of the
     improperly reallocated funds6. In addition, the University instituted new procedures to prevent
     any future occurrences.
                                         ,
     Accordingly, this case is closed.
